                             Office of the Inspector General


September 29, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


State Fiscal Year 1996 Single Audit Findings (A-07-98-71002)


The attached final report presents the results of our review. The report compiles and
categorizes Disability Determination Services findings reported for 25 States in their
State Fiscal Year 1996 single audits.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9700.




                                                 James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION





    STATE FISCAL YEAR 1996
    SINGLE AUDIT FINDINGS


 September 1999   A-07-98-71002


AUDIT REPORT

                     E X E C U T I V E S U M M A R Y


OBJECTIVE

This report compiles and categorizes Disability Determination Services (DDS) findings
reported for 25 States in their State Fiscal Year (SFY) 1996 single audits.1 This report
also includes findings reported by the Social Security Administration (SSA), Office of the
Inspector General (OIG), in its administrative cost audits at the California, Missouri, and
Pennsylvania DDSs.2

BACKGROUND

Single Audit Act

The Single Audit Act of 1984 established requirements for audits of States, local
governments, and Indian tribal governments administering Federal financial assistance
programs. To implement the requirements, the Office of Management and Budget
issued Circular A-128, “Audits of State and Local Governments.” Circular A-128
required State and local governments receiving more than $100,000 per year in Federal
financial assistance to have an annual financial and compliance audit.

State Disability Determination Services

SSA is responsible for the policies on developing disability claims under the Disability
Insurance (DI) and the Supplemental Security Income (SSI) programs. In accordance
with Federal regulations, DDSs in each State perform disability determinations under
the DI and SSI programs. DDSs determine claimants’disabilities and ensure adequate
evidence to support their determinations. SSA reimburses DDSs for 100 percent of
allowable expenditures.

There are 54 DDSs located in the 50 States, the District of Columbia, Puerto Rico,
Guam and the Virgin Islands. The DDSs are subject to the Single Audit Act except the
federally administered Virgin Islands DDS.

RESULTS OF REVIEW

The analysis of the 25 SFY 1996 single audit reports disclosed similar DDS findings in
the financial reporting, cash management, and computer control areas. The findings


1
    The SFY begins on July 1 and ends on June 30.
2
    The California, Missouri and Pennsylvania OIG audits cover SFY 1996 DDS operations.



                                                    i
relate to DDS’noncompliance with Federal requirements and, as described in the single
State audit reports, are caused by weaknesses in internal controls. Appendix B
summarizes single audit findings by DDS.

In addition to the findings disclosed in the single State audits, OIG audits at the
California, Missouri and Pennsylvania DDSs also disclosed findings in the financial
reporting, cash management, and computer control areas. Again, the findings relate to
DDS’noncompliance with Federal requirements because of weaknesses in internal
controls. Appendix C summarizes OIG’s findings.

The comparison of California, Missouri and Pennsylvania DDS findings in the single
audits and the OIG audits disclosed significant differences. OIG reported findings on
overstated obligations, incorrect draws of Federal funds, and inadequate computer
access controls. The single audits, however, did not report these findings. We are
reporting this comparison here for your information only. We will report the comparison
to Federal agencies cognizant for the California, Missouri, and Pennsylvania single
audits in separate management letters for any action they deem appropriate.

CONCLUSIONS AND RECOMMENDATIONS

The nature and frequency of the findings require SSA’s attention to improve DDS
operations. The noncompliance with Federal requirements, in our opinion, is attributed
to SSA’s limited internal control emphasis and guidance to DDSs.

SSA should be proactive in providing internal control guidance to DDSs. To do so, SSA
should instruct DDSs to:

•	 Implement effective procedures for preparing, reviewing, and approving information
   on the Report of Obligations and the Time Report of Personal Services.

•	 Establish procedures for ensuring the Report of Obligations and the Time Report of
   Personal Services are submitted to SSA within the time frame required by SSA
   instructions.

• Adhere to the Cash Management Improvement Act agreement.

• Process non-SSA work in accordance with the Memorandum of Understanding.

• Implement controls to prevent unauthorized computer access.

AGENCY COMMENTS

SSA agreed with the recommendations and will take the appropriate steps to implement
them. The full text of SSA’s comments is included in Appendix A.




                                           ii
                        T A B L E O F C O N T E N T S


                                                                                                              Page


EXECUTIVE SUMMARY..........................................................................................i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 3


    FINANCIAL REPORTING ................................................................................. 3


    � Inaccurate Financial Reports ....................................................................... 3


    � Untimely Financial Reports .......................................................................... 4


    CASH MANAGEMENT...................................................................................... 4


    � Cash Management Improvement Act........................................................... 4


    � Non-Social Security Administration Work .................................................... 5


    COMPUTER CONTROLS................................................................................. 6


COMPARISON OF SINGLE AUDIT AND OIG FINDINGS .................................... 7


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


AGENCY COMMENTS .......................................................................................... 9



APPENDICES
APPENDIX A - SSA Comments

APPENDIX B - Single Audit Findings by State – State Fiscal Year 1996

APPENDIX C - Office of the Inspector General Administrative Cost Audit Findings

APPENDIX D - Major Report Contributors

APPENDIX E - SSA Organizational Chart

                              I N T R O D U C T I O N


OBJECTIVE

This report compiles and categorizes Disability Determination Services (DDS) findings
reported for 25 States in their State Fiscal Year (SFY) 1996 single audits.3 This report
also includes findings reported by the Social Security Administration (SSA), Office of the
Inspector General (OIG), in its administrative cost audits at the California, Missouri, and
Pennsylvania DDSs.4

BACKGROUND

Single Audit Act

The Single Audit Act of 1984 established requirements for audits of States, local
governments, and Indian tribal governments administering Federal financial assistance
programs. To implement the requirements, the Office of Management and Budget
(OMB) issued Circular A-128, “Audits of State and Local Governments.” Circular A-128
required State and local governments receiving more than $100,000 per year in Federal
financial assistance to have an annual financial and compliance audit. In 1990, OMB
extended the single audit process to nonprofit organizations by issuing Circular A-133,
“Audits of Institutions of Higher Education and Other Non-Profit Organizations.”

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996.5 The
Single Audit Act Amendments extended the statutory audit requirement to nonprofit
organizations and revised various provisions of the 1984 Act including raising the
Federal financial assistance dollar threshold from $100,000 to $300,000. On
June 30, 1997, OMB issued revised Circular A-133, “Audits of States, Local
Governments and Non-Profit Organizations”to implement the1996 amendments and
rescinded Circular A-128.

State Disability Determination Services

The Disability Insurance (DI) program, established in 1954 under title II of the Social
Security Act, provides benefits to disabled wage earners and their families. In 1972,
Congress enacted title XVI, the Supplemental Security Income (SSI) program


3
    The SFY begins on July 1 and ends on June 30.
4
    The California, Missouri and Pennsylvania OIG audits cover SFY 1996 DDS operations.
5
  The Single Audit Act Amendments are effective for SFY beginning after June 30, 1996, and are not
applicable to the SFY 1996 single audits discussed in this report.



                                                    1

(Public Law 92-603). Title XVI provides a ntionally uniform program of income and
disability coverage to financially needy individuals who are aged, blind, or disabled.

SSA is responsible for the policies on development of disability claims under the DI and
SSI programs. According to Federal regulations, disability determinations under the DI
and SSI programs are performed by DDSs in each State. DDSs determine claimants'
disabilities and ensure that adequate evidence supports their determinations. SSA
reimburses the DDS for 100 percent of allowable expenditures.

There are 54 DDSs located in the 50 States, the District of Columbia, Puerto Rico,
Guam, and the Virgin Islands.

SCOPE AND METHODOLOGY

From October 1997 to March 1999, we reviewed the 51 SFY 1996 single audit reports
to identify DDS findings.6 Of the 51 single audit reports, 25 contained DDS findings.
We reported the findings and related recommendations on a State-by-State basis to
SSA’s Management Analysis and Audit Program Support Staff for audit resolution.

To develop this report, we reviewed:

    •	 DDS findings in 25 SFY 1996 single audit reports, the related recommendations
       and auditee responses;
    • the Single Audit Act of 1984;
    • the Single Audit Act Amendments of 1996;
    • SSA’s Program Operations Manual System (POMS) instructions;
    • the Cash Management Improvement Act (CMIA) of 1990;
    • SSA’s Systems Security Handbook;
    •	 Memorandums of Understanding (MOU) between the States’and the SSA
       Regional Commissioners; and
    •	 findings contained in the OIG administrative cost audit reports for the California,
       Missouri, and Pennsylvania DDSs.7




6
  SFY 1996 single audit reports for Guam and Puerto Rico are not issued. The Virgin Islands DDS is not
subject to the Single Audit Act since it is federally administered.
7
  The OIG audits at the California, Missouri, and Pennsylvania DDSs are the only OIG administrative cost
audits covering SFY 1996 DDS operations.



                                                   2

                     R E S U L T S O F R E V I E W


The analysis of the 25 SFY 1996 single audit reports disclosed similar DDS findings in
the financial reporting, cash management, and computer control areas. The findings
relate to DDS’noncompliance with Federal requirements and, as described in the single
State audit reports, are caused by weaknesses in internal controls. Appendix B
summarizes single audit findings by DDS.

In addition to the findings disclosed in the single State audits, OIG audits at the
California, Missouri, and Pennsylvania DDSs also disclosed findings in the financial
reporting, cash management, and computer control areas. Again, the findings relate to
DDS’noncompliance with Federal requirements because of weaknesses in internal
controls. Appendix C summarizes OIG’s findings.

The comparison of California, Missouri, and Pennsylvania DDS findings in the single
audits and OIG audits disclosed significant differences. OIG reported findings on
overstated obligations, incorrect draws of Federal funds, and inadequate computer
access controls. The single audits, however, did not report these findings. The
comparison is presented for informational purposes. We will report the comparison to
Federal agencies cognizant for the California, Missouri, and Pennsylvania single audits
in separate management letters.

FINANCIAL REPORTING

At the end of each Federal fiscal year (FFY) quarter, the DDS submits to SSA a
Form SSA-4513 (Report of Obligations) and a Form SSA-4514 (Time Report of
Personal Services). The Report of Obligations reports DDS disbursements,
unliquidated obligations, and cumulative obligations for personal services, medical
costs, indirect costs, and all other nonpersonal costs. The Time Report of Personal
Services reports the regular and overtime hours worked by DDS personnel on SSA
disability determinations. The DDS is instructed to simultaneously submit these forms
to SSA by the 25th day after the close of each quarter.8

Inaccurate Financial Reports

Seven single audit reports disclosed inaccuracies on the Reports of Obligations and
Time Reports of Personal Services. On the Reports of Obligations, the DDSs:



8
  POMS DI 39506.815 instructs DDSs to submit the forms to SSA by the 25th day after the close of each
quarter. However, in a letter dated October 22, 1992, SSA extended the DDSs’due date for these forms
         th
to the 30 day after the close of each quarter.


                                                  3

   •	 overstated disbursements by $112,935 when compared to supporting
      disbursement data recorded in the State’s accounting system;

   •	 overstated disbursements by $9,000 when compared to supporting DDS
      documentation;

   • did not have supporting documentation for unliquidated obligations;

   • did not properly allocate unliquidated obligations among the cost categories; and

   • understated disbursements by $4,851 because of unreported indirect costs.

The OIG audits at the California and Missouri DDSs also disclosed inaccuracies on the
Reports of Obligations (see Appendix C). The California DDS overstated obligations by
$9 million on the Report of Obligations. The Missouri DDS overstated obligations on the
Report of Obligations by $119,209.

Regarding the inaccuracies on the Time Reports of Personal Services, the single audits
reported employees’regular and overtime hours as either overstated or understated
because the DDS did not reconcile the Time Reports of Personal Services information
to supporting time and attendance records.

The inaccuracies on the Reports of Obligations and Time Reports of Personal Services
indicate an internal control weakness in the DDS’preparation, review, and approval of
these reports prior to submitting them to SSA.

Untimely Financial Reports

Five SFY 1996 single audit reports disclosed late submission of the Reports of
Obligations and Time Reports of Personal Services. Two States indicated that the data
needed for these reports was not available in their computer systems in time to meet
SSA’s 25-day reporting deadline. One State responded that it did not know the due
date of the reports. The remaining two States did not comment on the finding. Late
submissions of these financial reports indicate an internal control weakness in the DDS’
procedures for reporting information to SSA.

CASH MANAGEMENT

Cash Management Improvement Act

The Federal Government enacted CMIA of 1990 to ensure efficiency, effectiveness, and
equity in transferring funds between the States and Federal Government. The law
requires the Federal Government to enter an agreement with the State covering the
applicable Federal programs and establish the procedures and requirements for
transferring Federal funds.



                                           4

CMIA requires the States to minimize the time between transferring Federal funds and
paying disbursements to avoid excess cash balances. CMIA allows the Federal
Government to charge interest when a State receives Federal funds in advance of
disbursements. CMIA also allows the State to charge interest when the State incurs
costs for Federal programs before Federal funds are made available. The State must
calculate Federal and State interest liabilities for each applicable program and report
liabilities to the Federal Government annually.

Five single audit reports disclosed that the States did not draw Federal funds for its
DDS in accordance with the CMIA agreement.

•	 One DDS’s cash on hand exceeded the cash needed for immediate disbursements
   by $5.6 million. The State attributes the excess funds as security in case of a
   Federal Government shutdown.

• Three States did not draw funds timely resulting in interest lost to the State.

•	 One State based draws on estimated expenditures instead of the method specified
   in the CMIA agreement.

The OIG administrative cost audits at the Pennsylvania and Missouri DDSs also
reported cash management findings. The Pennsylvania audit disclosed that the State
incorrectly drew $1.6 million in Federal funds from the FFY 1995 account to pay
FFY 1996 expenditures. The Missouri DDS audit disclosed Federal funds drawn
exceeded allowable expenditures by $22,628 for FFY 1995, and were $95,060 less than
expenditures during FFY 1996.

The single audit reports also disclosed other problems with States adhering to their
respective CMIA agreements (see Appendix B). The CMIA findings indicate the States
did not implement internal control procedures to ensure compliance with the CMIA
agreement.

Non-SSA Work

When a DDS makes disability determinations for claims not related to SSA benefits, a
MOU should exist between the State and the Regional Commissioner outlining the
specifics of the non-SSA work. According to SSA instructions, non-SSA work should
not interfere with the DDS’s processing of SSA disability claims. Also, the non-SSA
work should be funded in advance to avoid charges to SSA.9




9
    POMS DI 39563



                                             5

According to SSA’s Office of Disability (OD), 16 States have MOUs.10 The SFY 1996
single audit reports for 2 of the 16 States, Florida and Kansas, contained findings
related to the DDSs’non-SSA work.

The Florida DDS processes work for the State’s Medically Needy Program.11 The
single audit report disclosed that the DDS retroactively reimbursed the SSA program for
the non-SSA work. As a result, the State did not reimburse SSA for $14,585 of the
$217,868 expended in processing non-SSA work. This occurred because the State did
not establish procedures for advanced funding of non-SSA work as required by the
MOU. In commenting on the finding, the State agreed to continue implementing
procedures for advanced funding for non-SSA work.

The Kansas DDS processes Medicaid claims for the Kansas Division of Social
Services.12 The single audit report disclosed that the DDS charged the State fund
designated for non-SSA work for SSA disability determination expenditures.13 The
State attributed this condition to an occasionally occurring computer system error.

COMPUTER CONTROLS

DDSs operate computer systems important to the administration of SSA’s disability
programs. These systems issue payments for administrative expenses, such as
medical examinations, and contain confidential claimant information including Social
Security numbers. SSA requires the DDSs to develop, distribute, and implement a
formal computer security policy addressing the confidentiality of sensitive information,
data integrity, and authorized access to information.

The DDSs computer security policy should identify computer access controls to ensure
only authorized users can access the system. Controls include the use of personal
identification numbers to identify users, passwords to authenticate the user’s identity,
and profiles to specify the functions users can perform.

Four SFY 1996 single audit reports disclosed weaknesses in computer access controls.
The weaknesses included:

•	 The DDS did not develop a formal security policy; and therefore, a telephone call or
   electronic mail informally established, modified, and/or revoked system access.




10
  The 16 States with MOUs are: Alaska, Arizona, Arkansas, Florida, Kansas, Kentucky, Iowa,
Massachusetts, Mississippi, New Mexico, New York, South Carolina, Tennessee, Vermont, Washington
and Wisconsin.
11
     MOU dated February 8, 1995.
12
     MOU dated July 1, 1974.
13
     The State auditors did not determine the expenditure amount.



                                                     6

•	 Several employees and production jobs updated, modified, and deleted critical data,
   which was considered inappropriate access to computer operations.

•	 DDS employees did not change passwords every 30 days as required by the State’s
   system security policy.

•	 DDS employees were allowed numerous log-on attempts, which were inconsistent
   with the State’s system security policy.

•	 Inappropriate access was allowed to the DDS’s medical vendor’s data base resulting
   in billing errors due to incorrectly modified information.

The OIG administrative cost audit at the California DDS also disclosed that access
controls over the States’computer system used to process SSA disability claims
needed improvement to prevent misuse through unauthorized transactions.

Without access controls, the DDS is open to security risks. Accidental or intentional
modifications to confidential and sensitive information can have adverse affects on the
quality of services and lead to unauthorized and inaccurate disbursements.

COMPARISON OF SINGLE AUDIT AND OIG FINDINGS

SSA’s OIG performs DDS administrative cost audits each year at the request of SSA’s
OD. The objectives of the DDS administrative cost audits are to determine whether:
1) expenditures and obligations are properly authorized and disbursed; 2) Federal funds
drawn down agreed with total expenditures; and 3) internal controls over the accounting
and reporting of administrative costs are adequate.

The OIG performed three administrative cost audits covering SFY 1996 DDS
operations: California, Missouri, and Pennsylvania. The comparison of the single audit
findings and OIG findings disclosed significant differences.

California DDS

The OIG administrative cost audit at the California DDS covered the 2-year period
ended September 30, 1996.14 The California DDS overstated obligations by
$9,138,726— because of: 1) incorrect time charges for allocating indirect costs;
2) ineffective methods for estimating unliquidated obligations; and 3) inadequate
controls for reimbursing medical costs. In addition, controls over the States’computer
system for processing SSA disability claims needed improvement. The findings are
listed in Appendix C.

The California SFY 1996 single audit report, however, contains no DDS findings (see
Appendix B).

14
     Common Identification Number (CIN): A-09-97-51006



                                                  7

Missouri DDS

The OIG administrative cost audit at the Missouri DDS covered the 2-year period ended

September 30, 1996.15 The Missouri DDS overstated obligations by

$119,209— because vendor refunds, uncashed checks, and funds from the sale of DDS

surplus property were not reported to SSA on the Report of Obligations. Also, Federal

funds drawn exceeded allowable expenditures by $22,628 during FFY 1995, and were

$95,060 less than expenditures during FFY 1996. The findings are listed in

Appendix C.


The Missouri SFY 1996 single audit reported insufficient procedures for depositing and

endorsing uncashed checks (see Appendix B). The single audit contained no findings

on overstated obligations or incorrect Federal funds draws as did OIG.


Pennsylvania

The OIG administrative cost audit at the Pennsylvania DDS covered the 3-year period
ending September 30, 1996.16 The State incorrectly drew $1.6 million in Federal funds
from the FFY 1995 account to pay FFY 1996 expenditures (see Appendix C).

The Pennsylvania single audit reported findings in the areas of financial reporting,
procurement, computer access controls, and equipment inventory. However, the audit
contained no findings related to draw downs of Federal funds, as did the OIG review.
(see Appendix B).




15
     CIN: A-07-97-51006
16
     CIN: A-13-97-52019


                                           8

 CONCLUSIONS AND RECOMMENDATIONS


The analysis of the 25 SFY 1996 single audit reports disclosed similar DDS findings in
the financial reporting, cash management, and computer control areas. In addition,
OIG’s audits at the California, Missouri, and Pennsylvania DDSs reported findings in the
same areas.

The nature and frequency of the findings require SSA’s attention to improve DDS
operations. The noncompliance with Federal requirements, in our opinion, is attributed
to SSA’s limited internal control emphasis and guidance to DDSs.

SSA should be proactive in providing internal control guidance to DDSs. To do so, SSA
should instruct DDSs to:

1.	 Implement effective procedures for preparing, reviewing, and approving information
    on the Report of Obligations and the Time Report of Personal Services.

2.	 Establish procedures for ensuring the Report of Obligations and the Time Report of
    Personal Services are submitted to SSA within the time frame required by SSA
    instructions.

3. Adhere to the CMIA agreement.

4. Process non-SSA work in accordance with the MOU.

5. Implement controls to prevent unauthorized computer access.


AGENCY COMMENTS

SSA agreed with the recommendations and will take the appropriate steps to implement
them. The full text of SSA’s comments is included in Appendix B.




                                           9

APPENDICES

                APPENDIX A



SSA COMMENTS

                                                                                           APPENDIX B



        SINGLE AUDIT FINDINGS BY STATE

            STATE FISCAL YEAR 1996


STATE                     SINGLE AUDIT FINDINGS ON                                           QUESTIONED
 DDS                 DISABILITY DETERMINATION SERVICES                                        COSTS ($)
 AL     1. Funds were not drawn in accordance with the funding techniques specified
           in the Cash Management Improvement Act (CMIA) agreement.                                       0
        2. Warrant clearance patterns for direct deposit payrolls were not developed
           in accordance with the CMIA agreement.                                                        727
 AK                                  No Findings Reported                                                  0
 AZ     The State did not calculate and document interest liabilities in accordance with
        the CMIA.                                                                                        0
 AR     1. Sign-in sheets for three employees for 1 day’s work were missing.                           201
        2. Purchases were made without obtaining competitive bids.                                   7,673
 CA                                 No Findings Reported                                                 0
 CO                                 No Findings Reported                                                 0
 CT                                 No Findings Reported                                                 0
 DC     1. For three quarters, Time Reports were not submitted timely.                                   0
        2. Data submitted on the medical evidence of record report was not
           cumulative.                                                                                   0
        3. Inaccurate information was reported on the Time Report.                                       0
        4. Invoices could not be located to support expenditures.                                    2,350
 DE                                  No Findings Reported                                                0
 FL     1. Non-Social Security Administration (SSA) work processed by the Disability
            Determination Services (DDS) for the State’s Medically Needy program                          0
            was not funded on an advance basis.
        2. The State did not reimburse SSA for all costs associated with non-SSA                    14,585
            work.
 GA                                  No Findings Reported                                                 0
 HI                                  No Findings Reported                                                 0
 ID                                  No Findings Reported                                                 0
 IL                                  No Findings Reported                                                 0
 IN     For two quarters, the Time Report was not submitted to SSA timely.                                0
 IA     1. Internal controls were not in place to ensure the accuracy of the CMIA                         0
            annual report.
        2. Procedures were not in place to ensure the accuracy of beginning cash                          0
            balances.
        3. Federal funds for payroll were not drawn consistently throughout the year                      0
            and were not in compliance with the CMIA agreement.
        4. The State’s interest liability was overstated on the CMIA annual report.
                                                                                                          0
        5. Inaccurate information was reported on the Time Report.

                                                B-1

STATE                     SINGLE AUDIT FINDINGS ON                                      QUESTIONED
 DDS                 DISABILITY DETERMINATION SERVICES                                   COSTS ($)
 KS     Expenditures for SSA disability determinations were charged to the State fund
        designated for non-SSA work.                                                      Undetermined
 KY     Controls over the DDS’computer system needed to be strengthened.                             0
 LA                                 No Findings Reported                                             0
 ME     1. Inaccurate information was reported on the Report of Obligations.                         0
        2. Funds for indirect costs were not drawn by the State.                                     0
        3. Cost Effective Measurement System (CEMS) reports were not submitted
           timely to SSA.                                                                           0
 MD                                No Findings Reported                                             0
 MA     1. Controls over payment vouchers for medical examiner reports were
           lacking.                                                                                 0
        2. Inappropriate segregation of duties existed for purchasing and payment of
           goods.                                                                                   0
        3. The Medical Examiner reports payment system needed improvement.                         50
 MI                                 No Findings Reported                                            0
 MN     1. The State had insufficient security administration procedures.                           0
        2. A comprehensive disaster recovery plan did not exist.                                    0
        3. Employees were granted inappropriate access to mainframe data and
           resources.                                                                               0
 MS                                No Findings Reported                                             0
 MO     1. Refunds were not submitted to the Department of Revenue timely.                          0
        2. Checks were not restrictively endorsed immediately upon receipt.                         0
 MT                                No Findings Reported                                             0
 NE                                No Findings Reported                                             0
 NV     The Time Report was not submitted to SSA timely.                                            0
 NH     CEMS input was not timely.                                                                  0
 NJ     1. All employees had not received annual performance evaluations.                           0
        2. Federal funds drawn were not calculated in accordance with the methods
           prescribed in the CMIA agreement.                                                         0
        3. Inaccurate information was reported on the Report of Obligations.                         0
        4. Inaccurate information was reported on the Time Report.                                   0
 NM     One personnel file did not contain verification of employment eligibility.                   0
 NY     For four quarters, the Time Report was not submitted to SSA timely.                          0
 NC     Rent expenditures were charged as both direct and indirect costs.                        8,950
 ND                                  No Findings Reported                                            0
 OH     Federal funds were not drawn in accordance with the terms of the CMIA
        agreement resulting in cash on hand ($6 million) in excess of immediate needs
        ($418,000).                                                                          5,582,000
 OK     1.   Improper interest event reporting.                                                      0
        2.   Incorrect percentages were used in calculating cash draws.                              0
        3.   Reports of Obligations were not submitted to SSA timely.                                0
        4.   A salary schedule did not exist for personnel employed in unclassified
             State service.                                                                         0
 OR                                  No Findings Reported                                           0


                                                 B-2

 STATE                      SINGLE AUDIT FINDINGS ON                                     QUESTIONED
  DDS                  DISABILITY DETERMINATION SERVICES                                  COSTS ($)
   PA      1. Contracting and procurement requirements were not always followed.                    0
           2. Controls over the computer system needed to be strengthened.                          0
           3. Inaccurate information was reported on the Time Report.                               0
           4. Electronic data processing equipment was not properly identified.                     0
    RI     1. Inaccurate information was reported on the Report of Obligations.                     0
           2. CEMS data was not reconciled with the Report of Obligations.                          0
   SC      Employee position descriptions were not updated to reflect job performance.              0
   SD                                  No Findings Reported                                         0
   TN                                  No Findings Reported                                         0
   TX                                  No Findings Reported                                         0
   UT                                  No Findings Reported                                         0
   VT                                  No Findings Reported                                         0
   VA                                  No Findings Reported                                         0
   WA                                  No Findings Reported                                         0
   WV      1. Inaccurate information was reported on the Report of Obligations.                 9,000
           2. Payment was made from a copied document instead of the original as
              required by State procedures.                                                         0
   WI                                  No Findings Reported                                         0
   WY                                  No Findings Reported                                         0

Total Questioned Costs                                                                     $5,625,536




                                                  B-3

                                                                             APPENDIX C



            OFFICE OF INSPECTOR GENERAL

                ADMINISTRATIVE COST

                   AUDIT FINDINGS


 STATE         OFFICE OF THE INSPECTOR GENERAL FINDINGS ON                     QUESTIONED
  DDS               DISABILITY DETERMINATION SERVICES                           COSTS ($)
   CA      1. Unallowable indirect costs were claimed for activities that
              were incorrectly charged to the departmental indirect cost           3,580,673
              pool.
           2. Doctors were paid twice to review medical records and                 192,001
              vendors received duplicate payments for medical services.
           3. Unliquidated obligations for Federal Fiscal Years (FFY) 1995         5,157,597
              and 1996 were overstated.
           4. Access controls over the States’computer system used to
              process the SSA disability claims needed improvement.
                                                                                           0
   MO      1. Vendor refunds and uncashed checks were not reported on
              the Report of Obligations.                                            107,428
           2. SSA was not reimbursed for DDS portion of funds received
              from the sale of surplus property.                                     11,781
           3. Federal funds drawn exceeded allowable expenditures by
              $22,628 for FFY 1995, and were $95,060 less than FFY 1996                    0
              expenditures.
   PA      Federal funds of $1.6 million were incorrectly drawn from the
           FFY 1995 Payment Management System allotment account to
           pay FFY 1996 expenditures.                                                      0
Total Questioned Costs                                                            $9,049,480
                                                                       APPENDIX D



          MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

Roger Normand, Director, Northern Program Audit Division

Mark Bailey, Deputy Director

Wanda Craig, Auditor

Tammy Oden, Auditor

Cheryl Robinson, Writer-Editor, Technical Services

For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-07-98-71002.
                        APPENDIX E



SSA ORGANIZATIONAL CHART

